DEPARTMENT OF HOMELAND SECURITY

   Office of Inspector General


  Improved Administration Can Enhance 

 Federal Emergency Management Agency 

   Classified Laptop Computer Security 


            Unclassified Summary 





OIG-08-14                   November 2007
                                                                    Office of Inspector General

                                                                    U.S. Department of Homeland Security
                                                                    Washington, DC 20528




                         Improved Administration Can Enhance 

        Federal Emergency Management Agency Classified Laptop Computer Security 

                                Unclassified Summary 

                                     OIG-08-14



We audited the Department of Homeland Security and its organizational components’ security
programs to evaluate the security and integrity of select government-issued laptop computers. The
report assesses the strengths and weaknesses of security controls over the Federal Emergency
Management Agency (FEMA) classified laptop computers. Our objective was to determine whether
FEMA had established and implemented adequate and effective security policies and procedures
related to the physical security of and logical access to its classified government-issued laptop
computers. To secure FEMA data stored on classified government-issued laptop computers, we
made six recommendations to the Administrator for FEMA.
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
